CERTIFICATE OF SERVICE
I, Dennis P. Riordan, a member of the Bar of this Court, hereby certify
pursuant to Supreme Court Rule 29.5(b), that on October 1, 2019, one copy of the
APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR WRIT
OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT in the above entitled case was mailed to each party identified
below or on that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid.
The name(s) and address(es) of those served are as follows:
Noel J. Francisco
Solicitor General of the United States
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

DATED: October 1, 2019
Dennis P. Riordan
1611 Telegraph Ave., Ste. 806
Oakland, CA 94612
(415) 431-3475
Counsel of Record For Petitioner

